                                                           BUREAU OF LABOR STATISTICS



             Office of Inspector General—Office of Audit




                                                           BLS COULD DO MORE TO ENSURE THAT
                                                           LABOR FORCE STATISTICS PROGRAM FUNDS
                                                           ARE EXPENDED AND REPORTED IN
                                                           ACCORDANCE WITH THE LABOR MARKET
                                                           INFORMATION AGREEMENTS




                                                                               Date Issued:     March 31, 2011
02-A12-345-67-890                                                           Report Number:    17-11-001-11-001
U.S. Department of Labor                                  March 2011
Office of Inspector General
Office of Audit
                                                          BLS COULD DO MORE TO ENSURE THAT
                                                          LABOR FORCE STATISTICS PROGRAM
                                                          FUNDS ARE EXPENDED AND REPORTED IN
BRIEFLY…                                                  ACCORDANCE WITH THE LABOR MARKET
Highlights of Report Number 17-11-001-11-001, to          INFORMATION AGREEMENTS
the Commissioner of the Bureau of Labor Statistics

WHY READ THE REPORT                                       WHAT OIG FOUND

BLS is responsible for producing some of the              While we noted no exceptions in our review of the
nation's most sensitive and important economic            four States’ reported personnel services and
data. BLS is an independent national statistical          administrative services transactions, we found
agency that collects, processes, analyzes, and            discrepancies in the non-personnel services
disseminates essential statistical data to the            transactions in two States and noted late reporting
American public, the U.S. Congress, other federal         of financial information in three States. In two
agencies, state and local governments, and                States, we found discrepancies in 118
businesses. BLS serves as a statistical resource to       non-personnel services transactions totaling
DOL by providing data and technical expertise.            $39,273 of the $106,000 reviewed. Officials of the
BLS data must satisfy a number of criteria,               two States could not provide supporting
including relevance to current social and economic        documentation to demonstrate that transactions
issues, timeliness in reflecting today’s rapidly          were allowable in accordance with Agreement
changing economic conditions, accuracy and                requirements and federal regulations.
consistently high statistical quality, and impartiality
in both subject matter and presentation.                  We also found three of the four States were late in
                                                          submitting monthly financial reports to their
Since 1917, BLS has used cooperative                      respective BLS Regional Offices as required by
agreements (Agreement) with states, territories           their Agreements.
and the District of Columbia (State) to fund the
collection and analysis of Labor Market Information
(LMI) data that BLS uses in its national statistical      WHAT OIG RECOMMENDED
programs. In fiscal year 2010, BLS reported that it
provided $83,029,112 in funding to 54 States for          We recommended that the Commissioner for BLS
the LMI program, specifically $62,650,903 for             (1) improve monitoring of State LMI financial
personnel services, $12,507,264 for non-personnel         transactions to ensure records are maintained that
services, and $7,870,945 for administrative               fully support LMI program expenditures, (2)
services.                                                 enforce policies and procedures currently in place
                                                          to ensure the States’ timely submission of monthly
WHY OIG CONDUCTED THE AUDIT                               financial reports, and (3) recover questioned costs
                                                          totaling $39,273 for non-personnel service
Our audit objective was to answer the following           transactions that the States could not support.
question:
    Did BLS ensure that funds for the Labor               The Commissioner of BLS stated that BLS does
    Force Statistics Program were expended and            extensive financial monitoring of grantees and
    reported in accordance with the LMI                   disagreed with the OIG’s first recommendation to
    Agreements?                                           improve monitoring of State LMI financial
                                                          transactions. The Commissioner of BLS generally
READ THE FULL REPORT                                      agreed with the OIG’s second and third
                                                          recommendations and has planned to take actions
To view the report, including the scope,                  to address them.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/17-
11-001-11-001.pdf
                                                             U.S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Did BLS ensure that funds for the Labor Force Statistics Program
were expended and reported in accordance with the LMI Agreements? ................. 4
         BLS did not fully ensure that funds were expended and reported for the
         Labor Force Statistics Program in accordance with the LMI Agreements. ........... 4

         Finding 1 — BLS did not fully ensure that federal funds expended were
                    allowable. .......................................................................................... 4
         Finding 2 — Monthly financial reporting deliverables in three of four States
                    were not always submitted timely. .................................................... 6

Recommendations ........................................................................................................ 7

Exhibit
         Exhibit Untimely Financial Reports .................................................................... 11

Appendices
         Appendix A Background ..................................................................................... 15
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17
         Appendix C Acronyms and Abbreviations .......................................................... 21
         Appendix D BLS Response to Draft Report........................................................ 23
         Appendix E Acknowledgements ......................................................................... 25




                                                            BLS Oversight of Labor Force Statistics Program Funds
                                                                                    Report No. 17-11-001-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




            BLS Oversight of Labor Force Statistics Program Funds
                                    Report No. 17-11-001-11-001
                                            U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




March 31, 2011

                        Assistant Inspector General’s Report



Keith Hall
Commissioner
Bureau of Labor Statistics
U.S. Department of Labor
Postal Square Building
2 Massachusetts Avenue, NW
Washington, DC 20212

The Bureau of Labor Statistics (BLS) is responsible for the production of some of the
nation's most sensitive and important economic data. Since 1917, BLS has used
cooperative agreements (Agreement) with states, territories and the District of Columbia
(State) to provide funding for the collection and analysis of Labor Market Information
(LMI) data that BLS uses in its national statistical programs. Within BLS, the Office of
Field Operations in conjunction with the Division of Financial Planning and Management
oversees the Labor Force Statistics Program and is responsible for monitoring LMI
Agreements with the States. Each LMI Agreement defines the products to be delivered
to BLS, the time frames for delivery, and the performance requirements. Federal
funding is provided to the State Workforce Agencies (SWA) within the States and is
intended to fully cover the costs to meet the LMI Agreement requirements. In Fiscal
Year (FY) 2010, BLS reported that it provided approximately $83 million in funding to 54
States for the LMI program, specifically $63 million for personnel services, $12 million
for non-personnel services, and $8 million for administrative support and technical
services (administrative services).

Our audit objective was to answer the following question:

      Did BLS ensure that funds for the Labor Force Statistics Program were expended
      and reported in accordance with the LMI Agreements?

The audit covered the FY 2010 LMI Agreements between BLS and four States — the
District of Columbia, New Jersey, Rhode Island, and Vermont. We interviewed
representatives from BLS and the States to gain an understanding of the BLS LMI
Agreements and their related activities (e.g., spending, modifications, re-obligations,
and de-obligations). To assess applicable internal controls at both BLS and the SWAs,
we analyzed 100 percent of non-personnel services, and a random sample of personnel
services for all four States reviewed. In addition, we analyzed 100 percent of
administrative services activities for Rhode Island and Vermont, and reviewed a random

                                            BLS Oversight of Labor Force Statistics Program Funds
                                        1                           Report No. 17-11-001-11-001
                                            U.S. Department of Labor – Office of Inspector General


sample of administrative services activities for New Jersey and District of Columbia to
ensure they were allowable. We also reviewed the deliverables required by the LMI
Agreements to determine if they were submitted in a timely manner.

We conducted this audit in accordance with generally accepted government auditing
standards (GAGAS) for performance audits. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on the audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on the audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

While we noted no exceptions in our review of the four States’ reported personnel
services and administrative services transactions, we found discrepancies in the non-
personnel services transactions in two States and noted late reporting of financial
information in three States.

Our review of personnel services transactions totaling $305,000 showed actual time
worked was allocated correctly and to the appropriate LMI personnel services accounts.
Likewise, our review of administrative services transactions totaling $270,000 showed
costs were allocated to the appropriate LMI statistical programs based on the number of
hours worked for each program.

However, in Vermont and Rhode Island, we found discrepancies in 118 non-personnel
services transactions totaling $39,273 of the $106,000 reviewed. This amounted to 37
percent of non-personnel services expenses, but less than 6 percent of total expenses
reviewed. Officials of the two States could not provide supporting documentation to
demonstrate that transactions were allowable in accordance with Agreement
requirements and federal regulations.

While the LMI Agreements state that BLS may conduct periodic on-site reviews to
evaluate the SWAs’ financial management systems, none were conducted at the four
States. Additionally, financial reports required by the LMI agreements did not contain
transaction-level detail, only aggregate spending. Without performing periodic on-site
reviews, BLS is systemically vulnerable at the non-personnel services transactional
level nationwide.

We also found three of the four States were late in submitting monthly financial reports
to their respective BLS Regional Offices as required by their Agreements. This includes
6 of 36 reports that were between 30-92 days late. Without timely financial reporting,
BLS cannot adequately monitor fund utilization and may be prevented from timely
identification of potential anomalies in the overall use of program funds.




                                            BLS Oversight of Labor Force Statistics Program Funds
                                        2                           Report No. 17-11-001-11-001
                                              U.S. Department of Labor – Office of Inspector General


We recommend that the Commissioner for BLS (1) improve monitoring of State LMI
financial transactions to ensure records are maintained that fully support LMI program
expenditures, and (2) enforce policies and procedures currently in place to ensure the
States’ timely submission of monthly financial reports, and (3) recover questioned costs
totaling $39,273 for non-personnel service transactions that the States could not
support.

BLS RESPONSE

BLS stated that it does extensive BLS financial monitoring such as using the grantees’
financial reports to monitor how they are using their federal funds. When warranted,
BLS requests supporting information from the grantees in order to justify their costs. It
considered review of detailed financial records and transaction to be auditing. BLS also
cited its reliance on the Single Audit Act requirements to fulfill its audit obligations,
believing that additional audits are not required and would be duplicative.

Regarding the enforcement of States’ timely submission of monthly financial reports,
BLS stated that these reports go above and beyond the OMB Federal requirements of
quarterly reporting. BLS said it will continue to work with its regional staff to ensure they
are following up with the grantees on delinquent reports. In addition, BLS will reiterate
the reporting requirements to the grantees in the transmittal memorandum for the
FY 2012 cooperative agreement application package.

Lastly, BLS stated that it will work with the BLS Grant Officer, regional offices and the
States to review the details that OIG provides on the questioned non-personnel service
costs. The BLS Grant Officer will make a determination as to the costs’ allowability
under the cooperative agreement.

OIG CONCLUSION

The OIG does not believe that reviewing the LMI financial reports is sufficient to monitor
detailed financial activity of the LMI program. The financial reports required by the LMI
agreements contain only aggregate spending. Performing periodic on-site reviews of
transaction-level details as part of regular assigned duties or developing alternative
monitoring processes would allow BLS to better monitor the use of federal funds and
identify improper transactions. On-site monitoring to ensure grantees have adequate
documentation to substantiate their federal spending does not rise to the level of an
audit, but does provide assurance of proper stewardship of federal funds. The BLS
Labor Force Statistics Program is not a major program as defined by the Single Audit
Act. As such, BLS’s reliance on the States’ single audit reports would not provide
assurance of adequate audit coverage of program expenditures.




                                              BLS Oversight of Labor Force Statistics Program Funds
                                          3                           Report No. 17-11-001-11-001
                                             U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did BLS ensure that funds for the Labor Force Statistics Program
            were expended and reported in accordance with the LMI
            Agreements?

      BLS did not fully ensure that funds were expended and reported for the Labor
      Force Statistics Program in accordance with the LMI Agreements.

While we noted no exceptions in our review of the four States’ reported personnel
services and administrative transactions, we found discrepancies in the non-personnel
services transactions reviewed in two States and noted late reporting of financial
information in three States.

Finding 1 — BLS did not fully ensure that federal funds expended were allowable.

BLS did not fully ensure that funds expended and reported for the Labor Force Statistics
Program were in accordance with the LMI Agreements. While we noted no exceptions
in our review of the four States’ reported personnel and administrative services
transactions, officials in two of four States in our sample were not able to demonstrate
that $39,273 of federal funds used for non-personnel services were allowable.

In the four States in our sample, we reviewed 139 personnel services transactions
totaling approximately $306,000 and noted no exceptions. These transactions represent
costs for personnel services and personnel benefits for staff directly contributing to the
work performed to accomplish Agreement deliverables. Our review of the personnel
services transactions was conducted to determine if all timesheets were approved,
hourly rates and net pay were documented and correctly calculated, transactions were
posted to the appropriate LMI personnel services accounts, and all employees’ time
charges were for work performed on the LMI projects. Our review determined that the
personnel services transactions were accurately and appropriately allocated to
personnel related sources as outlined in the LMI Agreements.

We also reviewed 34 months of administrative services transactions totaling
approximately $271,000 and noted no exceptions (see Table 4 in Appendix B).
Administrative services transactions include all direct or allocated personnel services
and personnel benefits costs for staff who work in an administrative capacity benefiting
multiple programs administered by the SWA, including the LMI program. Our review
determined that the administrative services transactions were properly allocated based
on the number of hours worked on LMI program activities.

However, our review of 1,211 non-personnel service transactions totaling approximately
$106,000 identified $39,273 of non-personnel services discrepancies in the States of
Rhode Island and Vermont. This amounted to 37 percent of non-personnel services
expenses, but less than 6 percent of total expenses reviewed. Non-personnel services
transactions include the cost of all goods and services other than personnel services


                                             BLS Oversight of Labor Force Statistics Program Funds
                                         4                           Report No. 17-11-001-11-001
                                            U.S. Department of Labor – Office of Inspector General


and personnel benefits used by the staff in support of the activities shown in the work
statements. These include supplies, communication, travel, equipment, rent and utilities
(see Table 1 below for the summary of transaction testing).


                     Table 1: Summary of Transaction Testing

                  Total Sampled      Total Amount
                   Transactions            of                                    Percentage
                     /Months         Transactions         Total Amount
                      Tested            Tested            of Exceptions
Personnel         139                  $305,579                   $0                  0%
Services          Transactions
Administrative    34 Months            $270,819                   $0                  0%
Services
Non-Personnel     1,211                $106,431               $39,273                 37%
Services          Transactions
                                       $682,829               $39,273               5.75 %

According to the 2010 LMI Agreement for each State:

      A State agency will retain records in accordance with 29 CFR 97.42,
      Retention and access Requirements for Records. A State agency will
      retain all records pertinent to the Agreement, including financial and
      statistical records and supporting documentation, for a period of three
      years after the close of the Agreement period.

According to Office of Management and Budget (OMB) Circular A-87, Cost Principles
for State, Local and Indian Tribal Governments, page 10, to be allowable under federal
awards, costs must be adequately documented and authorized under state or local
laws, or regulations.

We found the States of Rhode Island and Vermont had no documentation to support
that 48 non-personnel services transactions totaling $14,082 and 70 non-personnel
services transactions totaling $25,191, respectively, were allowable. In the absence of
supporting documentation (e.g., requisitions, purchase orders, receiving reports, and
payment vouchers), we are questioning $39,273 in costs that these States reported to
BLS through their Agreements (see Table 2 below for the results of our non-personnel
service transaction testing).




                                            BLS Oversight of Labor Force Statistics Program Funds
                                        5                           Report No. 17-11-001-11-001
                                             U.S. Department of Labor – Office of Inspector General



         Table 2: Results of Non-Personnel Services Transaction Testing

                        Total        Transactions
       State                                                    Total Amount of
                      Sampled            Not
                                                           Transactions Not Supported
                    Transactions      Supported
   Rhode Island          150              48                           $14,082
     Vermont             949              70                           $25,191
   New Jersey             64              0                               0
    District of
                          48                  0                             0
    Columbia
      Total             1,211                118                       $39,273

While the LMI Agreements state that BLS may conduct periodic on-site reviews to
evaluate the SWAs’ financial management systems, none were conducted at the four
States. Additionally, financial reports required by the LMI agreements did not contain
transaction-level detail, only aggregate spending. Performing periodic on-site reviews of
transaction level details as part of regular assigned duties or developing alternative
monitoring processes would allow BLS to better monitor the use of federal funds and
identify improper transactions. Without performing periodic on-site reviews of non-
personnel services transactions, BLS is systemically vulnerable nationwide to misuse of
federal funds that could potentially affect the formula BLS uses to allocate LMI funds to
a State in future years.

Finding 2 — Monthly financial reporting deliverables in three of four States were
            not always submitted timely.

We found that three of the four States in our sample did not always submit monthly
financial reports to their respective BLS Regional Offices within 30 days of the reporting
period, as required by their Agreements. Only the State of Rhode Island submitted its
financial reports on time.

The administrative requirements of the 2010 LMI Cooperative Agreement states,
“Monthly financial reports must be submitted to the BLS Regional Office within 30 days
of the end of the reporting period. “

In addition, the Agreements require that State agencies must report monthly for each
regular ongoing program, showing total accrued expenditures, total obligation, and the
total cash received for the month and cumulatively for the current fiscal year. We
reviewed 36 monthly financial reports submitted to the respective BLS Regional Offices
and identified 18 of the reports were submitted late. Six of the 18 reports were at least
30 days late and one report was more than 90 days late (see Table 3 below for analysis
of late submittal of monthly financial reports and Exhibit).




                                             BLS Oversight of Labor Force Statistics Program Funds
                                         6                           Report No. 17-11-001-11-001
                                            U.S. Department of Labor – Office of Inspector General



              Table 3: Analysis of Monthly Financial Report Timeliness
                                                                Number of
                              Total        Total                Reports At
               State
                            Reports      Reports      Percent    Least 30
                           Reviewed        Late         Late    Days Late
        Rhode Island           12            0          0%           0
        Vermont                12            8         66.6%         2
        New Jersey              6            4         66.6%         0
        District of
                                6            6        100.00%        4
        Columbia
        Total                  36           18          50%          6

BLS officials stated that numerous State personnel turnovers resulted in untimely
submission of monthly reports. Without timely financial reports, BLS cannot adequately
monitor fund utilization and may be prevented from timely identifying potential
anomalies in the overall use of program funds.

In addition, over the last 2 years, the States of Michigan and Ohio received an approved
variance not to submit monthly financial reports because each of the State’s accounting
systems did not have monthly reporting capability. While each State submitted quarterly
reports, the approved variance affected the timeliness of the financial data submitted
from those States and prevents BLS from having timely financial reports available to
review.


RECOMMENDATIONS

We recommend the Commissioner for the Bureau of Labor Statistics take steps to:

1. Improve monitoring of State LMI financial transactions to ensure records are
   maintained that fully support LMI program expenditures.

2. Enforce policies and procedures currently in place to ensure the States’ timely
   submission of monthly financial reports.

3. Recover questioned costs totaling $39,273 for non-personnel service transactions
   that the States could not support.




                                            BLS Oversight of Labor Force Statistics Program Funds
                                        7                           Report No. 17-11-001-11-001
                                           U.S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that BLS and State LMI personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                           BLS Oversight of Labor Force Statistics Program Funds
                                       8                           Report No. 17-11-001-11-001
              U.S. Department of Labor – Office of Inspector General




Exhibit




              BLS Oversight of Labor Force Statistics Program Funds
          9                           Report No. 17-11-001-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             BLS Oversight of Labor Force Statistics Program Funds
           10                        Report No. 17-11-001-11-001
                                            U.S. Department of Labor – Office of Inspector General



                                                                                         Exhibit
Untimely Financial Reports

   •   Vermont - Eight of twelve monthly reports were submitted untimely to the BLS
       Regional Office.

                               Vermont Late Monthly Reports
                                                                            Number
                                                               Required     of Days
            Monthly Report        Date Submitted       Submission Date         Late
              October 2009      December 8, 2009      November 30, 2009      8 Days
            November 2009        January 12, 2010     December 30, 2009     13 Days
            December 2009        February 4, 2010       February 1, 2010     3 Days
              January 2010          May 13, 2010          March 2, 2010     72 Days
             February 2010          May 13, 2010         March 30, 2010     44 Days
               March 2010           May 13, 2010           April 30, 2010   13 Days
                 April 2010          June 7, 2010          May 30, 2010      8 Days
                 May 2010             July 6, 2010        June 30, 2010      6 Days



   •   New Jersey - Four of six reports were submitted untimely to BLS Regional Office.

                              New Jersey Late Monthly Reports
                                                                            Number
                                                             Required       of Days
            Monthly Report        Date Submitted      Submission Date          Late
              October 2009      December 9, 2009     November 30, 2009       9 Days
            November 2009        January 11, 2010    December 30, 2009      12 Days
              January 2010         March 4, 2010         March 2, 2010       2 Days
             February 2010          April 19, 2010      March 30, 2010      20 Days



   •   District of Columbia - Six of six reports were submitted untimely to the BLS
       Regional Office.

                         District of Columbia Late Monthly Reports
                                                                            Number
                                                              Required      of Days
            Monthly Report       Date Submitted       Submission Date          Late
              October 2009        March 2, 2010      November 30, 2009      92 Days
            November 2009         March 8, 2010      December 30, 2009      68 Days
            December 2009           April 1, 2010      January 30, 2009     61 Days
              January 2010         April 1, 2010          March 2, 2010     30 Days
             February 2010         April 20, 2010        March 30, 2010     21 Days
               March 2010           May 5, 2010           April 30, 2020     5 Days




                                            BLS Oversight of Labor Force Statistics Program Funds
                                          11                        Report No. 17-11-001-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             BLS Oversight of Labor Force Statistics Program Funds
           12                        Report No. 17-11-001-11-001
               U.S. Department of Labor – Office of Inspector General




Appendices




               BLS Oversight of Labor Force Statistics Program Funds
             13                        Report No. 17-11-001-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             BLS Oversight of Labor Force Statistics Program Funds
           14                        Report No. 17-11-001-11-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

BLS is responsible for the production of some of the nation's most sensitive and
important economic data. BLS is an independent national statistical agency that
collects, processes, analyzes, and disseminates essential statistical data to the
American public, the U.S. Congress, other federal agencies, state and local
governments, and businesses. BLS also serves as a statistical resource to the DOL by
providing data and technical expertise. BLS data must satisfy a number of criteria,
including relevance to current social and economic issues, timeliness in reflecting
today’s rapidly changing economic conditions, accuracy and consistently high statistical
quality, and impartiality in both subject matter and presentation.

Since 1917, BLS has used agreement with States to fund the collection and analysis of
LMI data that BLS uses in its national statistical programs. Within BLS, the Office of
Field Operations in conjunction with the Division of Financial Planning and Management
is responsible for monitoring LMI Agreements with the States. Each LMI Agreement
defines the products to be delivered, time frames for delivery, and performance
requirements. Federal funding is provided to the SWAs within the States and is intended
to fully cover the costs to meet the LMI Agreement requirements.

Section 14 of the Wagner Peyser Act authorizes the Secretary of Labor to reimburse the
States to provide data for national statistical programs. In FY 2010, BLS reported that it
provided $83,029,112 in funding to 54 States for the LMI program, specifically
$62,650,903 for personnel services, $12,507,264 for non-personnel services and
$7,870,945 for administrative services.

The LMI programs are expected to provide comprehensive and timely information on
the labor force, employment, unemployment, and related labor market characteristics at
the national level; industrial and occupational employment at the state and local levels;
and labor force and unemployment at state and local levels. In addition, these programs
develop projections of the labor force, economic growth, industrial output, and
employment by industry and occupation for 10 years into the future for the Nation as a
whole. This performance indicator is composed of the underlying performance
measures of output, timeliness, accuracy, and long-term improvement for the Labor
Force Statistics programs. BLS demonstrates continuous improvement by setting more
ambitious targets on its overall indicator, as well as the individual measures that
underlie the indicator.




                                          BLS Oversight of Labor Force Statistics Program Funds
                                        15                        Report No. 17-11-001-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             BLS Oversight of Labor Force Statistics Program Funds
           16                        Report No. 17-11-001-11-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

Did BLS ensure that funds for the Labor Force Statistics Program were expended and
reported in accordance with the LMI Agreements?

Scope

The audit covered the FY 2010 LMI Agreements between BLS and the District of
Columbia, New Jersey, Rhode Island, and Vermont. The audit team reviewed personnel
services, non-personnel services and administrative services funds expended and
reported for the 1st and 2nd quarters of FY 2010 for the District of Columbia and New
Jersey, and all four quarters of FY 2010 for Rhode Island and Vermont. Initial testing
performed in the District of Columbia and New Jersey produced limited results;
therefore, the scope was expanded to encompass the entire year for testing in Rhode
Island and Vermont. Through interviews with BLS Philadelphia Regional Office officials
we also learned that the majority of LMI funds are expended during the last two quarters
of the fiscal year. In addition, we obtained information regarding reporting variances that
BLS had approved for the States of Michigan and Ohio.

Fieldwork was conducted at the BLS National Office in Washington, D.C.; the BLS
Philadelphia and Boston Regional Offices; including SWAs in the District of Columbia,
New Jersey, Rhode Island, and Vermont.

We conducted this audit in accordance with GAGAS for performance audits. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Methodology

In planning and performing the audit, we reviewed the LMI Agreements, OMB
regulations, and BLS policies and procedures to determine the federal and State
requirements for the LMI program. To gain further understanding of BLS policies and
procedures and the LMI program requirements we interviewed BLS and SWA officials
and their staffs.

We reviewed each State’s cost allocation policy and budget for the LMI program,
including the salaries expended to operate the program. We interviewed financial
managers at both BLS and the SWAs. In addition, we tested the accuracy of salaries



                                           BLS Oversight of Labor Force Statistics Program Funds
                                         17                        Report No. 17-11-001-11-001
                                          U.S. Department of Labor – Office of Inspector General


and hourly rates charged to the LMI program as well as financial reporting requirements
under the LMI Agreement.

We reviewed personnel services transactions to determine if all timesheets were
approved, hourly rates and net pay were documented and correctly calculated,
transactions were posted to the appropriate LMI personnel services accounts, and all
employees’ time charges were for work performed on the LMI projects. We reviewed
administrative services transactions to determine if they were properly allocated based
on the number of hours worked on LMI program activities. We reviewed purchasing
documents such as requisitions, purchase orders, receiving reports, and payment
vouchers related to non-personnel services to determine if they were allowable. We
also reviewed monthly and quarterly financial reports submitted by the SWAs to their
respective BLS Regional Office to determine if the reports were submitted timely.

We designed a two-stage stratified cluster sample to select LMI transactions for audit
testing. The first stage of the sample design randomly selected BLS regions and States
to be included in the audit scope. The second stage of the sample design selected
individual transactions to be tested at the State level. For the second stage of the
sample design, we used a stratified random sample to select individual transactions
from the following three areas: (1) personnel services, (2) non-personnel services, and
(3) administrative services. These are the areas in which the States report costs to BLS
as part of their work on LMI programs. Based on the final sampling plan the audit
results cannot be projected and are limited to the four States included in the audit.

While the States responded that they could provide the total number of LMI personnel
services transactions, not all States could provide the same information for non-
personnel and administrative services. Some States responded that their cost
accounting system could only provide the total amount charged per month for non-
personnel and administrative services. We analyzed 100 percent of non-personnel
services, and a random sample of personnel services for all four States. In addition, we
analyzed 100 percent of administrative services activities for Rhode Island and
Vermont, and reviewed a random sample of administrative services activities for New
Jersey and District of Columbia. In each State we reviewed the following number of
transactions:




                                          BLS Oversight of Labor Force Statistics Program Funds
                                        18                        Report No. 17-11-001-11-001
                                           U.S. Department of Labor – Office of Inspector General




           Table 4: Sample Population of Personnel, Non-Personnel and
                             Administrative Services
                                             Non-
                          Personnel
                                          Personnel
          State             Service                          Administrative Services
                                           Services
                         Transactions
                                         Transactions
    District of               20               48          5 Months (Random sample
    Columbia                                               excluded February)
    New Jersey                20               64          5 Months (Random sample
                                                           excluded January)
    Vermont                   55              949          All 12 Months
    Rhode Island              44              150          All 12 Months
    Total                    139             1,211                     34

The universe provided by the four States was as follows: 794 personnel service
transactions totaling $1,512,000; 1,211 non-personnel services transactions totaling
$106,431; and 36 months for administrative services totaling $290,639.

For administrative services, we reviewed 5 months of transactions, excluding February
for the District of Columbia; 5 months of transactions, excluding January for New
Jersey; and all 12 months of transactions for Vermont and Rhode Island.

We reviewed 139 personnel service transactions totaling $305,579.15; 1,211
transactions for non-personnel services totaling $106,431; and 34 out of 36 months for
administrative services totaling $270,819.

We reviewed 100 percent of the monthly and quarterly financial reports submitted to
BLS from the SWAs. For two States — the District of Columbia and New Jersey — we
reviewed six monthly financial reports and two quarterly financial reports. For the States
of Rhode Island and Vermont, we reviewed 12 monthly financial reports and four
quarterly financial reports.

In performing the audit, BLS provided us with their expenditures reports for the States.
We performed a data reliability assessment to ensure we had complete and accurate
LMI data. To determine whether the data was reliable to select our sample, we
compared the LMI financial data reports BLS provided us with a report from the Health
and Human Service’s Payment Management System–financial system and LMI financial
information received from the 54 States. We did note a few differences, but the
differences were not material for the purpose of selecting a sample of State LMI
transactions to review. We concluded the data to be sufficiently reliable for our audit
purposes.

We evaluated internal controls used by BLS and SWAs for reasonable assurance that
the SWAs complied with appropriate laws and regulations in expending and reporting
LMI funds. Our consideration of internal controls related to the expending and reporting

                                          BLS Oversight of Labor Force Statistics Program Funds
                                        19                        Report No. 17-11-001-11-001
                                          U.S. Department of Labor – Office of Inspector General


LMI funds would not necessarily disclose all matters that might be reportable conditions.
Because of inherent limitations in internal controls, misstatements, or losses,
noncompliance may nevertheless occur and not be detected.

Criteria

   •   LMI Agreements for selected States

   •   OMB Circular A-87, Cost Principles for State and Local and Indian Tribal
       Governments

   •   OMB Circular A-123 – Management’s Responsibility for Internal Control

   •   OMB Circular A-133 – Audits of States, Local Governments, and Non-Profit
       Organizations

   •   Title 29, Parts 93, 96, 97, 98 and 99 of the Code of Federal Regulations

   •   Workforce Investment Act of 1998, as amended




                                          BLS Oversight of Labor Force Statistics Program Funds
                                        20                        Report No. 17-11-001-11-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix C
Acronyms and Abbreviations


Administrative Services           Administrative Support and Technical Services

Agreement               C          ooperative Agreement

BLS            Bureau                    of Labor Statistics

DOL            Department                       of Labor

FY                                Fiscal Year

GAGAS                             Generally Accepted Government Auditing Standards

LMI            Labor                    Market Information

OIG            Office                   of Inspector General

OMB                               Office of Management and Budget

State                   States,          Territories and the District of Columbia

SWA                     State          Workforce Agency




                                         BLS Oversight of Labor Force Statistics Program Funds
                                       21                        Report No. 17-11-001-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




             BLS Oversight of Labor Force Statistics Program Funds
           22                        Report No. 17-11-001-11-001
                                 U.S. Department of Labor – Office of Inspector General


                                                                        Appendix D
BLS Response to Draft Report




                                 BLS Oversight of Labor Force Statistics Program Funds
                               23                        Report No. 17-11-001-11-001
  U.S. Department of Labor – Office of Inspector General




  BLS Oversight of Labor Force Statistics Program Funds
24                        Report No. 17-11-001-11-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Tracy Katz, Zaunder Saucer, Tinuke Aruwayo,
Grover Fowler, Jr., Barry Weiss, Deborah Jarmon, Lawrence Alli, Jr., Steven Johnson,
Adams Kondeh, and Christine Allen.




                                        BLS Oversight of Labor Force Statistics Program Funds
                                      25                        Report No. 17-11-001-11-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
